mwe.com
Michael B. Kimberly
Attorney at Law
mkimberly@mwe.com
+1 202 756 8901

December 30, 2020
BY ELECTRONIC FILING
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Houston Community College System v. Wilson, No. 20-804

Dear Mr. Harris:
I represent respondent in this case. The petition for a writ of certiorari was filed on
December 11, 2020 and docketed on December 14, 2020. Respondent’s brief in opposition is
due, without extension, on January 13, 2021.
Pursuant to Rule 30.4, I respectfully request a 30-day extension of time within which to
file a brief in opposition, to and including February 12, 2021. The extension is necessary in light
of the press of other business, including proximate due dates in numerous other cases before this
Court and pending appeals in the Second and Seventh Circuits and the D.C. Court of Appeals.
Thank you for your attention to this matter.

Sincerely,

cc: counsel of record for petitioner

500 North Capitol Street, NW Washington DC 20001-1531 Tel +1 202 756 8000 Fax +1 202 756 8087
US practice conducted through McDermott Will & Emery LLP.

